CERTIFICATE OF SERVICE
NO.TBD
Dana Albrecht
Petitioner(s)
V.

Katherine Albrecht
Respondent(s)
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the Dana
Albrecht Petition for Writ of Certiorari, by mailing three (3) true and correct copies of ,the
same by USPS Priority mail, postage prepaid for delivery to the following addresses:
Israel F. Piedra
Welts, White, & Fontaine, P.C.
29 Factory Street
Nashua, NH 03061
(603) 883-0797
ipiedra@lawyersnh.com
Counsel for Katherine A Ibrecht

y~

Dan Abramovich
July 11,2019
SCP Tracking: Albrech-131 D.W. Hwy #235-Cover White

